January 13, 2005
Report No. 05-002



Price Reduction on Laptop Computers




             AUDIT REPORT
                                                                                     Report No. 05-002
                                                                                         January 2005


                               Price Reduction On Laptop Computers
                               Results of Audit

Purpose of Audit               The FDIC purchased 3,769 IBM laptop computers through iGov at prices
                               that were not based on the current IBM FSS prices. IBM’s FSS contract
In December 2003, the          specified that if IBM’s established price decreased, the government was to
FDIC’s Division of             have the benefit of the lower price as of either the date of order or the date
Administration (DOA)           of shipment. iGov did not ensure that prices charged to the FDIC
issued a purchase order to     reflected additional reductions to IBM’s FSS prices. As a result, based on
iGov.com (iGov) for 3,500      IBM’s advertised prices as of the shipping date, the FDIC overpaid
International Business         $1,967,863 for the laptop computers.
Machines Corporation
(IBM) laptop computers at a    Recommendations and Management Response
unit price of $2,328. From
February through June          We recommended that the Director, DOA, pursue recovery of $1,967,863
2004, the FDIC issued          from iGov based on IBM Thinkpad laptop computer prices that should
several modifications to the   have been charged according to iGov’s BPA and FSS contract provisions.
purchase order, increasing
the total quantity to 3,769.   DOA concurred with the recommendation. DOA stated that neither the
All of the computers were      Acquisition Services Branch nor the FDIC’s Division of Information
purchased at the same unit     Resources Management had been informed by iGov of any unit price
price, for a total purchase    reductions offered by IBM. DOA will issue a demand letter by
price of $8,774,232.           January 31, 2005.

The computers were             We plan to report the $1,967,863 as questioned costs in our Semiannual
purchased through the          Report to the Congress.
Department of the Army’s
blanket purchase agreement     Calculation of Overcharges
(BPA) with iGov. The BPA
                                                                           FDIC
agreement incorporated the     iGov Shipping     Units       OIG
                                                                           Unit
                                                                                        Unit Price   Questioned
terms and conditions of            Date         Shipped    Calculated                   Difference     Cost
                                                           Unit Price      Price
iGov’s General Services                                                    Paid
Administration Federal
Supply Schedule (FSS)             12/11/03           200        $1,893      $2,328            $435         $87,000
Contract and IBM’s GSA
FSS Contract.                    03/17/04 to
                                  04/15/04         3,300        $1,801      $2,328            $527        1,739,100
The objective of the audit       03/17/04 to
was to determine whether          04/15/04            83        $1,801      $2,328            $527          43,741
the FDIC received the
appropriate price on the          06/29/04            68        $1,801      $2,328            $527          35,836
computers.
                                  07/09/04           118        $1,801      $2,328            $527          62,186

                                       Totals      3,769                                                 $1,967,863
    Federal Deposit Insurance Corporation                                                                   Office of Audits
    801 17th St. NW Washington, DC 20434                                                       Office of Inspector General


DATE:                                      January 13, 2005

MEMORANDUM TO:                             Arleas Upton Kea, Director
                                           Division of Administration


FROM:                                      Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                           Assistant Inspector General for Audits

SUBJECT:                                   Price Reduction on Laptop Computers
                                           (Report No. 05-002)


The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG)
has completed an audit of the FDIC’s 2003 purchase of 3,769 laptop computers. The
objective of the audit was to determine whether the FDIC received the appropriate price
on the computers. Details on our objective, scope, and methodology are presented in
Appendix I.

Background

On December 10, 2003, the FDIC’s Division of Administration (DOA) issued a purchase
order to iGov.com (iGov)1 for 3,500 International Business Machines Corporation (IBM)
Thinkpad T41 Model 23739FU laptop computers at a price of $2,328 per computer.
Subsequently, the FDIC issued several modifications to the purchase order, increasing the
quantity from 3,500 to 3,769 computers at the same unit price, for a total purchase price
of $8,774,232. The computers were purchased through iGov’s blanket purchase
agreement (BPA),2 DAAB15-01-A-1007, with the U.S. Department of the Army’s
Communications-Electronics Command Acquisition Center-Washington.

The Army entered into the BPA with iGov for commercial-off-the-shelf information
technology hardware, software, peripherals, and services in support of the Army’s and
other federal agencies’ missions. 3 The BPA incorporated the terms and conditions of
iGov’s General Services Administration4 (GSA) Federal Supply Schedule (FSS) Contract
GS-35F-4411G and IBM’s GSA FSS Contract GS-35F-4984H. Detailed BPA pricing
criteria are included in Appendix II. Through BPAs with GSA FSS contractors, the

1
  iGov is an information technology contractor and a small business based in McLean, Virginia. The
contractor holds several government-wide acquisition contracts, including a General Services
Administration information technology schedule contract.
2
  A BPA is a simplified ordering instrument established between the federal government and a contractor to
fulfill anticipated repetitive needs for goods through accounts with qualified sources of supply.
3
  This BPA is available for use by the Army and all other Department of Defense agencies. Federal civilian
agencies and departments may request to use this BPA.
4
  GSA provides products and services to support the work of the government throughout the country by
negotiating contracts with the private sector for about $40 billion of goods and services annually.


                                                           2
government takes advantage of volume discounts and expedited ordering and satisfies the
customers' requirements within the terms and conditions of the FSS.

An FSS, also known as a multiple award schedule (MAS), lists the contractors that have
been awarded a contract by GSA and can be used by all federal agencies. GSA
determines the prices to be fair and reasonable and awards competitive contracts to those
companies who give federal agencies the same or better discounts than they give their
best commercial customers.


RESULTS OF AUDIT

The FDIC purchased laptop computers through iGov based on an iGov price quote that
did not reflect current IBM prices. As a result, iGov overcharged the FDIC by
$1,967,863. We recommended and management has agreed to pursue recovery of these
funds from iGov. We will include the $1,967,863 as questioned costs in our Semiannual
Report to the Congress.


PRICE REDUCTIONS ON LAPTOP COMPUTERS

The FDIC purchased 3,769 IBM Thinkpad T41 Model 23739FU laptop computers
through iGov at prices that were not based on the current IBM FSS prices. Prior to
shipping the laptops to the FDIC, iGov did not ensure that prices charged to the FDIC
reflected additional reductions to IBM’s FSS prices. As a result, based on IBM’s
advertised prices as of the shipping date, the FDIC overpaid $1,967,863 for the laptops.


Blanket Purchase Agreement Pricing Criteria

The BPA between iGov and the Army requires iGov to give an immediate price decrease
(maintaining the same discount percentage) to agencies whenever FSS contract prices
decrease. The BPA requires iGov and IBM to notify the Army immediately when prices
are reduced and to update IBM’s Web page to reflect the reduced price. IBM’s FSS
contract (which was incorporated into the iGov BPA) specifies that if IBM’s established
price for a machine decreases, the government is to have the benefit of the lower price as
of either the date of order or the date of shipment. See Appendix II for detailed pricing
criteria.


iGov Blanket Purchase Agreement Price Quotations

On November 19, 2003, iGov quoted the FDIC a unit price of $2,328 for 3,500 laptop
computers. The price quotation was based on iGov’s BPA, which included a 13-percent
BPA discount per unit from IBM’s FSS price. iGov offered the FDIC an additional




                                             3
    5-percent discount per unit, thus making the BPA discount price 18 percent5 below
    IBM’s FSS price of $2,821 per unit.


    IBM Announced Price Reductions

    On November 13, 2003 and March 9, 2004, IBM announced price reductions that iGov
    did not pass on to the FDIC, beginning with the November 19, 2003, price quotation and
    on subsequent purchase orders and modifications. Based on shipping dates from iGov to
    the FDIC, we calculated the amount overcharged as shown in detail in the table that
    follows.

Calculation of Overcharges
                                                Ship                            Calculated            Unit Price
                       Date of     Date of      Date      Units        GSA      Unit Price   FDIC     Difference   Questioned
    Description




                       Order        IBM       (iGov to   Shipped        Unit      (IBM       Unit       (FDIC      (Unit Price
                                    Price        the                   Priceb     Price      Price    Unit Price   Difference
                                  Reduction    FDICa)                           Reduction    Paidc     Paid less     x Units
                                                                                 + 18%                Calculated    Shipped)
                                                                                Negotiated               Unit
                                                                                Discount)c              Price)

                                  11/13/03    12/11/03       200       $2,309       $1,893   $2,328        $435       $87,000
 Purchase
 Order                 12/10/03               03/17/04
                                                 to
                                  03/09/04    04/15/04     3,300       $2,196       $1,801   $2,328        $527     1,739,100

 Contract                                     03/17/04
 Modification                                    to
 No. 1                 02/26/04   03/09/04    04/15/04        83       $2,196       $1,801   $2,328        $527        43,741
 Contract
 Modification
 No. 3d                05/06/04   03/09/04    06/29/04        68       $2,196       $1,801   $2,328        $527        35,836
 Contract
 Modification
 No. 4                 06/01/04   03/09/04    07/09/04       118       $2,196       $1,801   $2,328        $527        62,186

                  Totals                                   3,769                                                   $1,967,863
Source: OIG analysis of IBM FSS price changes and unit prices the FDIC paid.
    a
     We were unable to obtain IBM’s shipping dates to iGov.
    b
      The GSA unit price is the IBM FSS price as of the shipment date from iGov to the FDIC.
    c
     We calculated the unit price by reducing the GSA unit price as of each shipping date (based on IBM’s FSS
    contract clause that assured the government the lower price as of either the date of order or date of
    shipment) by 18 percent in accordance with the terms of the BPA.
    d
      Contract Modification No. 2 is not shown because it pertained to peripheral equipment and not laptops.

    In each case, the price reduction had occurred before the shipment dates. Thus, the FDIC
    was overcharged by $1,967,863 because iGov did not comply with BPA provisions

    5
     In DOA’s Selection Recommendation Report for Award of a Contract, dated December 4, 2003, the
    discount was reported as 18 percent. The 18 percent was based on an oral representation from iGov. The
    actual discount received was 17.5 percent.


                                                                   4
related to FSS price reductions. Specifically, iGov did not ensure that prices charged to
the FDIC reflected reductions to IBM’s FSS price. As a result, the FDIC did not receive
the benefit of a price reduction that had taken place on November 13, 2003 – 6 days prior
to iGov’s November 19, 2003 price quote and almost 1 month before IBM’s initial
shipment of 200 computers on December 11, 2003. Additionally, IBM announced a
second price decrease on March 9, 2004, which was prior to the shipment of the
remaining computers. Still, iGov did not reduce the price of the laptops to the FDIC.


DOA Management’s Proposed Action

We met with DOA representatives on November 19, 2004. DOA management agreed to
open discussions with iGov and GSA with the expectation of obtaining a refund.


Recommendation

We recommend that the Director, DOA, pursue recovery of $1,967,863 from iGov based
on IBM Thinkpad laptop computer prices that should have been charged according to
iGov’s BPA and FSS contract provisions.


CORPORATION COMMENTS AND OIG EVALUATION

On January 7, 2005, the Director, DOA, provided a written response to the draft report.
The response is presented in its entirety in Appendix III. DOA concurred with the
recommendation. DOA stated that neither its Acquisition Services Branch nor the
FDIC’s Division of Information Resources Management had been informed by iGov of
any unit price reductions offered by IBM. DOA has agreed to issue a demand letter by
January 31, 2005.

DOA’s planned corrective action is responsive. The recommendation is resolved but will
remain undispositioned and open until we have determined that agreed-to corrective
action has been completed and is effective. Appendix IV contains a summary of
management’s response to our recommendation.




                                            5
                                                                            APPENDIX I

                   OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the FDIC received the appropriate
price on its purchase of laptop computers. We performed our audit from November 16,
2004, through December 10, 2004 in accordance with generally accepted government
auditing standards.

This audit resulted from the laptop purchase coming to our attention during an ongoing
audit of FDIC’s Contract Solicitation and Evaluation Process (Assignment No. 2004-
065). Therefore, we limited our procedures to determining (1) contract provisions in
iGov’s BPA contract, (2) IBM’s FSS contract provisions and prices from November 2003
through November 2004, (3) shipping dates and unit prices paid on the FDIC’s purchase
orders, (4) prices the FDIC should have paid for laptops in accordance with iGov’s BPA
based on shipping dates to the FDIC, and (5) whether there were any overcharges.

To determine iGov’s BPA provisions, we reviewed the BPA contained in the FDIC’s
contract file. We also researched changes to iGov’s BPA posted on the Internet.

We contacted IBM to determine its FSS prices from November 2003 to November 2004.
We identified the date and reduced price for each change in IBM’s FSS prices. We also
researched changes in IBM’s FSS contract terms and conditions as posted on IBM’s Web
page.

We determined the date and quantity of computers the FDIC ordered in its original
purchase orders and in modifications 1, 3, and 4. We then compared the prices the FDIC
paid to the prices it should have paid based on IBM’s reductions to its FSS price for the
computer model purchased.

We did not attempt to determine why iGov did not charge the FDIC the current price,
whether IBM failed to notify iGov of its price reductions, or if iGov had been notified of
IBM’s price reductions but did not reduce the unit price to the FDIC. In addition, we did
not perform procedures to assess the FDIC’s internal controls related to this acquisition.




                                             6
                                                                           APPENDIX II

          BLANKET PURCHASE AGREEMENT PRICING CRITERIA


Section 2.0 of iGov’s BPA states:

       All orders placed against this BPA are subject to the terms and conditions of the
       FSS contract. The terms and conditions included in this BPA apply to all
       purchases made pursuant to it. In the event of an inconsistency between the
       provisions of the BPA and the FSS contract, the provisions of the FSS contract
       will take precedence.

Part C-1 of iGov’s BPA contract states:

       Any decrease in the FSS contract price shall result in immediate commensurate
       decreases in the BPA prices. For example, if the BPA price for an item is 75% of
       the FSS contract price and the FSS contract price decreased, the BPA price will
       decrease so that its new price remains 75% of the new FSS contract price. Prices
       may be voluntarily reduced at any time. CECOM AC-W and SCP shall be
       notified immediately via e-mail whenever price reductions occur. New price
       reductions shall be published on the contractor’s Web page and provided
       electronically to CECOM AC-W and SCP.

The BPA also states that the agreement is under the terms and conditions of iGov’s GSA
FSS contract GS-35F-4411G, IBM’s GSA FSS contract GS-35F-4984H, and other
contractors’ FSS contracts.

Section 3.6 of IBM’s FSS contract states:

       The price for a Machine or model conversion is the price shown in this Price List
       or as otherwise provided in a price quote from IBM to the Government (if an
       order is received during the specified validity period of the price quote). If IBM’s
       established price for a Machine or model conversion has decreased, the
       Government shall have the benefit of the lower price as of the date of order
       receipt or the date of shipment. The Government will be invoiced for products
       upon shipment. In the event that the Government is of the opinion that any
       charges or credits on an invoice are not billed properly, every effort should be
       made to promptly pay the portion of the invoice not in question and give detailed
       written notice to IBM concerning the items in question.




                                             7
Appendix III
                                                                                                                                                 APPENDIX IV

                                                MANAGEMENT RESPONSE TO RECOMMENDATIONS

    This table presents the management response on the recommendation in our report and the status of the recommendation as of the date of
    report issuance.
                                                                                                                                                Open
                                                                  Expected              Monetary       Resolved:a      Dispositioned:b           or
       Corrective Action: Taken or Planned/Status              Completion Date          Benefits       Yes or No         Yes or No             Closedc
    DOA will prepare a demand letter requesting a
    refund from iGov.                                           January 31, 2005       $1,967,863          Yes               No                 Open


    a
        Resolved –    (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                      (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                      (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
9




                          long as management provides an amount.
    b
      Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
    through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
    recommendation.
    c
        Once OIG dispositions the recommendation, it can then be closed.
